       AUDIT OF AN SBA GUARANTEED LOAN TO 


[Exemption 6   ]DBA [                    Exemption 6   ]


                Grand Rapids, Michigan 


               Audit Report Number: 7-10 


                    January 16, 2007 

                    U.S. SMALL BUSINESS ADMINISTRATION 

                        OFFICE OF INSPECTOR GENERAL 

                            WASHINGTON, D.C. 20416 



                                                                 AUDIT REPORT
                                                          Issue Date: January 16, 2007
                                                          Report Number: 7-10
           /S/ original signed
To:        Janet A. Tasker
           Acting Director for Financial Assistance


From:      Debra S. Ritt
           Assistant Inspector General for Auditing

Subject: Audit of an SBA Guaranteed Loan to [             Exemption 6               ]
         dba[      Exemption 6       ]

        The purpose of this memorandum is to notify you of $183,297 in improper
payments that should be recovered. During our audit of the guarantee purchase process
at the National Guaranty Purchase Center, we identified a problematic loan
[Exemption 2 ] made by Old Kent Bank to [                  Exemption 6               ]
(borrower). We reviewed the loan to determine if the lender originated, serviced and
liquidated the purchased loan in accordance with Small Business Administration (SBA)
rules and regulations. The audit was conducted during February 2006 in Herndon,
Virginia in accordance with Government Auditing Standards prescribed by the
Comptroller General of the United States.

        SBA is authorized under Section 7(a) of the Small Business Act to provide
financial assistance to small businesses in the form of government-guaranteed loans.
SBA loans are made by participating lenders under an agreement (SBA Form 750) to
originate, service and liquidate loans in accordance with SBA regulations, policies and
procedures. If a lender fails to comply materially with SBA regulations, the loan
agreement, or does not make, close, service, or liquidate a loan in a prudent manner, SBA
has exclusive discretion to release itself from liability, in whole, or in part, on the loan
guarantee.

        Old Kent Bank was authorized by SBA to make guaranteed loans under the
Preferred Lender Program (PLP). As a PLP lender, Old Kent Bank was permitted to
process, close, service and liquidate SBA loans with limited documentation and review
by SBA. On July 21, 2003, Old Kent Bank was acquired by Fifth Third Bank of
Cincinnati and Fifth Third Bank became responsible for all decisions regarding SBA
loans previously made by Old Kent Bank. Fifth Third Bank was unable to locate its loan
file for the subject loan and, therefore, our audit was limited in scope to a review of only
those documents included in the SBA loan file.

        On March 15, 2001, the lender approved a $299,000 SBA-guaranteed loan using
PLP procedures for a borrower's purchase of equipment and a video store known as
[            Exemption 6                   ]. The business purchase was reportedly
funded by $299,000 in loan proceeds and $40,000 of equity injection. The borrower
defaulted on July 1, 2002, approximately 15 months after the loan was disbursed on
March 27, 2001, thus this loan is considered an early default under SBA policy. The
borrower filed Chapter 7 Bankruptcy on August 4, 2003. SBA purchased the guarantee
for $167,518 on January 18, 2005, and reimbursed the lender $15,779 for its share of
legal fees on March 4, 2005, for a total guarantee purchase of $183,297.

The Lender did not Comply with SBA Loan Origination Requirements

        The lender did not comply with SBA requirements in determining the value of the
business being purchased, and made an SBA loan for a change of ownership that was not
an arm’s-length transaction. Furthermore, the borrower’s repayment ability was not
properly calculated. As a result, SBA made improper payments totaling $183,297 when
it honored the guarantee and reimbursed the lender for legal expenses.

Business Valuation

        Standard Operating Procedure (SOP) 50 10(4) requires the lender to determine the
value of the business being acquired when a change in ownership occurs. The value of
the business must be based on a generally accepted valuation method used for the
industry in which the business operates when the change of ownership involves an
acquisition of a going concern. The SOP further states that the selling price must be
compared to the reasonable value of the business and that purchaser/seller agreement of
the selling price is not adequate justification for financing the amount requested.

       Policy Notices 5000-677, Loans to Finance Changes of Ownership, and 5000-
693, Clarification of Policy Notice 5000-677, further require the lender to use at least two
methods to value the business and to include the substantiating analysis in its loan file.

       Our audit disclosed that the lender did not provide SBA any documentation
showing the methods used to value the business. Thus, there was no assurance the
business was accurately valued. The $339,000 purchase price of the business per the
Buy/Sell Agreement comprised:

          $110,000 in games and tapes;
          $50,000 in computer equipment, shelving, countertops, security system, neon
           sign, television and game system;
          $134,000 in goodwill and customer list; and
          a $45,000 non-compete clause.




                                              2

The $339,000 selling price is questionable because the income tax returns for the seller’s
business (including 3 video stores) showed operating losses for 2 of the 3 years prior to
the purchase. In particular, the $134,000 in goodwill and the customer list and the
$45,000 non-compete clause are unsupported.

        For loans to finance changes of ownership, SBA Policy Notice 5000-693 requires
lenders to verify the historical profit and loss statements of the business being acquired
for the last 2 years by verifying tax returns. In addition, when verification of tax returns
is not possible, e.g., where only a part of a business is being sold, other means of
verification, such as sales tax reports filed with the state government should be used to
verify the financial information. The source of the information, such as the lender,
packager, accountant, etc., is required to be identified in the lender’s documentation.

        In its credit memorandum the lender stated, “Although tax returns specific to the
store are not available (the current owner combines all three stores into one entity), there
are income statements showing strong cash support.” The lender, however, did not
provide copies of any income statements to SBA for the individual store purchased by the
borrower or other documentation used to verify the business’ historical information. As
this loan was an early default, the lender was required by SBA Policy Notice 5000-831,
7(a) Loan Guaranty Purchase Policy, to submit financial information to SBA with its
purchase package. The Notice also stated that if there was an early default and the lender
failed to provide evidence of the required verification of financial information, or a
credible explanation for its absence, then a full denial of liability would generally be
warranted.

Arm’s-Length Transaction

        SOP 50 10(4) and Policy Notice 5000-677 require that a change in ownership be
an arm's-length transaction. Based on the relationship of the buyer and seller, it does not
appear the change of ownership was an arm’s-length transaction. According to the
lender’s credit memorandum, the seller started in business many years ago with the help
of the buyer’s mother. The seller wanted to repay the favor by helping the buyer
purchase one of the seller’s stores to get started in the video business. At the time of the
sale, the buyer had worked for the seller for about 8 months, earning an annual salary of
$19,500. According to the lender’s credit memorandum, the seller gave the borrower a
$40,000 bonus (over 200 percent of his annual salary) to fulfill the $40,000 equity
injection requirement in the loan authorization since the borrower had limited assets and
liquidity. The equity injection was to be used towards the purchase of the video store.
Since the buyer's mother helped the seller start in business and the equity injection was
provided by the seller, it appears the change of ownership was not an arm’s-length
transaction.

        As it appears the $40,000 equity injection did not come from the borrower's
personal funds, SBA may have provided 100 percent financing for the business which is
prohibited by SOP 50 10(4). There is no evidence the lender ever questioned the
relationship between the parties and the lack of support for the required equity injection.



                                             3

        After the loan went into default and the borrower filed bankruptcy, an individual
with the same last name as the seller approached the lender with an offer to purchase a
majority of the collateral. Furthermore, another individual with the same last name as the
seller actually purchased the collateral at a private sale on December 1, 2003, for
$40,000. As a result, the seller may have received SBA loan proceeds of $160,000 for
the borrower’s purchase of his inventory and equipment, and less than 3 years later been
able to recoup those items for only $40,000. This is further evidence that the change of
ownership was not an arm’s-length transaction.

Repayment Ability Calculation

        SOP 50 10(4) states that historical earnings and cash flow are the most reliable
bases for determining repayment ability. The repayment ability must include the
company’s revenues and expenses and consider owner withdrawals and annual fixed
obligations including the proposed loan payments. The SOP further provides that the
loan application must be denied if the borrower cannot repay the loan from the cash flow
of its operations.

        According to the lender’s credit memorandum, the borrower was going to reduce
the previous owner’s draw by $20,000 per year. As a result, the lender inappropriately
added $20,000 to the historical net income of the business in calculating the borrower's
repayment ability. Such withdrawals would be reflected in the principal's capital
investment in the business, thus would not affect net income. According to generally
accepted accounting principles, personal withdrawals by the owner of a sole
proprietorship do not affect net income.

        As depicted below, the lender’s analysis also did not consider all of the principal’s
consumer debt payments, and there was no documentation in the loan file indicating that
the borrower had other sources of income to meet his personal debt obligations.
According to the principal’s credit report as of October 9, 2000, annual payments for
consumer debt totaled $15,000. The lender, however, calculated the principal’s annual
consumer debt to be $7,824. When the lender’s cash flow analysis is adjusted for the
owner’s draw and additional consumer debt, the auditor’s calculation shows the principal
needed an additional $4,500 to service his debts.




                                             4

                                       Cash Flow Analysis

                                                   Lender         Audit
                                                  Calculation   Calculation
              Net Income (Historical)              $46,000       $46,000
              Add:
              Interest                             $2,000         $2,000
              Depreciation                         $94,000        $94,000
              Owner’s Draw                         $20,000          $0
              Less:
              Restock Inventory                    ($70,000)     ($70,000)
              Cash Available for Debt Service       $92,000       $72,000
              Debt Service                         ($61,500)     ($61,500)
              Cash Available for Owner’s Draw       $30,500       $10,500
              Less Owner’s Consumer Debt:
              Credit Cards                         ($3,432)       ($5,196)
              Vehicle Lease                        ($4,392)       ($4,392)
              Mortgage                               ($0)         ($5,412)
              Total Consumer Debt                  ($7,824)      ($15,000)
              Cash Overage (Shortage)              $22,676        ($4,500)

        As a result, the borrower did not have repayment ability at the time the loan was
made. Due to the materiality of the lender’s errors in originating this loan, full recovery
of the $183,297 paid to purchase the guarantee is warranted.

Recommendation

       We recommend that the Acting Director for Financial Assistance:

1.	 Seek recovery of $183,297, less any subsequent recoveries, from Fifth Third Bank on
    the guarantee paid.

Lender Comments

      Fifth Third Bank agreed with the finding. The lender’s comments are included as
Appendix I.

Agency Comments

       SBA Management agreed that Fifth Third Bank should be required to repay
$183,297.

Office of Inspector General Response

      The lender and Agency comments were responsive to our finding and
recommendation.

       We appreciate the courtesies and cooperation of the Office of Financial
Assistance representatives during this audit. If you have any questions concerning this


                                             5

report, please call me at (202) 205-[Exemption 2] or Robert Hultberg, Director,
Credit Programs Group at (202) 205-[Exemption 2].




                                         6

                            Appendix I




                [Exempt6]




[Exemption 6]
                                                                                                               Appendix II


                                     AUDIT REPORT DISTRIBUTION 



Recipient                                                                                                   No. of Copies

Associate Administrator for Capital Access ............................................................. 1 


General Counsel ........................................................................................................ 3 


Deputy General Counsel ........................................................................................... 1 


United States Government Accountability Office .................................................... 1 


Office of the Chief Financial Officer 

Attention: Jeff Brown............................................................................................... 1 

J e n 12 200 7 6:5 4 PM                         HP LASERJET FAX                                                                      P•1
     J FI+-12-211!11117       ae•S?              ?8348'19948                                                                    P. 8 1



-~
                                                     llKO.IUIJINJ)AnOl( ACTION IRUT
                                                        DAIOIG POU.O'MJP SYSTIM



 SBA PROGRAM: Otl!ce oll'bacW ~
 anoli.T 1'f'n.E, NUMUal AD4ls of a S'BA ~ l.-10 lalme s-t.& ... Vo4ec> ·
 Miller Df"J.Aatwd SliM
 REPORT IIIIUK DAD:                                                                                            JUC'OMMENDATIOfc 1'10. I




~~{~~-           ..   ~   .                                                         .                                              - --.    :

~~--       ..-        .-- .. :_ : .                 .      .. .                  .                 .                           .           .;i
 ·~   AF-
 CJPriofty..-ec ·                                                                         Sftg;3 ~7
                                                                                                       1         OA...,s.,a..a bdllr -
 CJD._..                                                                                                         Cl~
~~----------L--------------+----------~




"'     .         -. . .          --         .                         ..   /.   .              .           .                          .     .

~~~~~~.:~,-~-·. :~_:                    ·. ·_. __· .·          .- .. -... ~-_- ::.·_.         .-- ..._: . . 1-:.:-      -·~ - - ·...:;;~:j
                                        I                      s                          s
 !!pln!lcp grMI!pl(l)          -·m ':




                                                                                (Diot . .. , _ _ . . _ . ,. . _ l     Dw:
 010 - . -
                                                           - - - ----

                                                                                                                            TOTA.. P.81
